            OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    FOLLOW-UP ON PRIOR OFFICE
    OF THE INSPECTOR GENERAL
         PRISONER AUDITS



     July 2003   A-01-02-12018




   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY
MEMORANDUM
Date:   July 24, 2003                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up on Prior Office of the Inspector General Prisoner Audits (A-01-02-12018)



        Our objective was to determine whether the Social Security Administration (SSA)
        implemented the recommendations in our May 1996 report, Effectiveness in Obtaining
        Records to Identify Prisoners (A-01-94-02004), and our June 1997 report, Effectiveness
        of the Social Security Administration’s Procedures to Process Prisoner Information,
        Suspend Payments and Collect Overpayments (A-01-96-61083).

        BACKGROUND
        The Social Security Act prohibits the payment of benefits to individuals receiving

                  Old-Age, Survivors and Disability Insurance (OASDI) benefits who have been
                   convicted and incarcerated for a period of more than 30 days in a jail, prison or
                   other penal or correctional facility1 and

                  Supplemental Security Income (SSI) payments who have been confined in a
                   public institution throughout any month.2

        SSA built several unique systems to control, monitor and suspend benefits to inmates
        who should not be receiving Social Security benefits. These systems include the
        Prisoner Update Processing System (PUPS), Unverified Prisoner System (UPS) and
        Incarceration Report Control System (IRCS).

                  PUPS records inmate information under the inmate’s own Social Security
                   number (SSN). PUPS also streamlines the handling of inmate reports in SSA’s
                   field offices (FO); provides a control mechanism for inmate alerts; suspends
                   benefits to an inmate; calculates the incentive payments for correctional facilities;
                   and records benefit reinstatements for beneficiaries when they are released from
                   the correctional institution and request reinstatement of benefits.3
        1
            Social Security Act § 202(x)(1)(A)(i), 42 U.S.C. § 402(x)(1)(A)(i).
        2
            Social Security Act § 1611(e)(1)(A), 42 U.S.C. § 1382(e)(1)(A).
        3
            Program Operations Manual System (POMS), section SI 02310.073.A.2.
         UPS records information for inmates whose SSNs do not verify through SSA's
          automated Enumeration Verification System (EVS). If SSA locates an SSN for
          an unverified UPS record through its manual verification process, UPS will re-
          introduce the SSN into EVS for screening against the Master Beneficiary Record,
          Supplemental Security Record and PUPS for processing. Matched SSNs will
          result in PUPS alerts.4

         IRCS contains information about reports sent to SSA by correctional facilities that
          agreed to furnish information about their inmate populations. In addition, IRCS
          contains information about reporters and facilities, reporting agreement data,
          details of reports received, incentive payment agreements and incentive
          payments made to facilities.5

Our May 1996 audit found that prisoners were improperly receiving OASDI and SSI
benefit payments, and SSA had achieved only limited success in obtaining prisoner
information. Our June 1997 audit found that payments to prisoners were not always
detected nor stopped because of control weaknesses in SSA’s prisoner record
matching procedures and processing of prisoner alerts. In addition, we found that SSA
had limited success in attempting to recover overpayments made to prisoners.

These 2 audit reports contained 21 recommendations to

         obtain and process prisoner information more effectively;
         improve SSA’s administrative process;
         generate and work prisoner alerts more efficiently; and
         increase overpayment collections from prisoners.

(See Appendices C and D for a full list of the 21 recommendations included in our
2 prior prisoner reports.)

SCOPE AND METHODOLOGY

To accomplish our objective, we:

     Reviewed our prior prisoner audit reports, Effectiveness in Obtaining Records to
      Identify Prisoners (A-01-94-02004), May 1996, and Effectiveness of the Social
      Security Administration’s Procedures to Process Prisoner Information, Suspend
      Payments and Collect Overpayments (A-01-96-61083), June 1997.

     Reviewed applicable sections of the Social Security Act and SSA’s regulations,
      rules, policies and procedures.

4
  PUPS alerts are generated to notify the appropriate SSA FO that an OASDI beneficiary or SSI recipient
is incarcerated and benefit payments may need to be suspended. POMS, section SI 02310.073.A.4.
5
    POMS, section SI 02310.073.A.1 and Modernized Systems Operation Manual 91-1.
     Obtained and reviewed reports SSA used to determine whether correction agencies
      were reporting data to SSA in accordance with the terms of their agreements.

     Obtained an extract from PUPS in October 2001 that contained approximately
      4.5 million prisoner alerts. With this extract, we determined the number of alerts that
      were processed through UPS and the number of potentially duplicate alerts issued.

     Contacted SSA FO staff to determine when SSA began transmitting SSI prisoner
      alerts electronically.

     Obtained an extract from IRCS in May 2002 of all facilities and reporters having
      active prisoner agreements with SSA. With this extract, we determined which
      facilities had active agreements with SSA to provide prisoner data and determined
      the number of verified SSNs on the latest submission from each reporter.

     Selected a random sample of 10 States—1 State from each of SSA’s 10 regions.6

     Obtained and sampled records from SSA’s December 2001 prisoner files for the
      Federal Bureau of Prisons (FBP) and the 10 randomly selected States. (See
      Appendix B for details of our sampling methodology.)

We conducted our follow-up audit between August 2002 and February 2003 in Boston,
Massachusetts. We found that the data used for this audit were sufficiently reliable to
meet our audit objective. The entities audited were SSA’s FOs and the Office of Public
Services and Operations Support under the Deputy Commissioner for Operations. We
conducted our audit in accordance with generally accepted government auditing
standards.

RESULTS OF REVIEW

SSA implemented the 21 recommendations contained in our 2 prior audit reports related
to obtaining, processing, and suspending Social Security benefits to prisoners as well
as collecting overpayments from prisoners. Specifically, our review found that SSA

     had active agreements to obtain prisoner data from the 50 States, the District of
      Columbia, the FBP, and over 3,000 county and local facilities;

     implemented new systems to monitor compliance with prisoner agreements7 and
      track and resolve prisoner cases that do not verify through EVS;8 and

6
  SSA was unable to provide us the December 2001 data file for 1 of our initial 10 States—Tennessee.
Therefore, we randomly selected an alternate State from this region—Alabama. The 10 States (by SSA
region) in our sample were Rhode Island, New York, Maryland, Alabama, Illinois, Louisiana, Iowa,
Colorado, Arizona and Washington.
7
    IRCS was implemented in March 1997.
8
    UPS was implemented in March 1999.
   used the additional tools made available through new legislation9 to improve its
    efforts to stop Social Security benefit payments to prisoners and collect
    overpayments from prisoners.

Furthermore, our review of 533 sample cases showed

   SSA’s systems generated prisoner alerts for individuals whose Social Security
    benefits were already suspended for a reason other than being in prison,

   only 1 instance where a prisoner alert was not processed, and

   SSA properly worked about 95 percent of the cases we reviewed.

See Appendices B through D of this report for specific details on each of the
21 recommendations—including the corrective actions taken and our assessment of the
Agency’s implementation of these recommendations.

CONCLUSIONS
Overall, SSA effectively implemented the recommendations from our two prior prisoner
reports. Additionally, SSA’s efforts to improve its handling of this workload have
contributed to the Agency’s overall efforts to reduce improper payments—which was
one of the five Government-wide initiatives in the Fiscal Year 2002 President’s
Management Agenda.

AGENCY COMMENTS
In response to our draft report, SSA stated its appreciation to the Office of the Inspector
General for conducting this follow-up review. (See Appendix E for the full text of SSA’s
comments.)




                                                      James G. Huse, Jr.




9
 Public Law 104-193, the Personal Responsibility and Work Opportunity Reconciliation Act of 1996,
§ 203 (enacted in August 1996); Public Law 106-169, the Foster Care Independence Act of 1999, §§ 202
and 203 (enacted in December 1999); and Public Law 106-170, the Ticket to Work and Work Incentives
Improvement Act of 1999, § 402 (enacted in December 1999) contained provisions related to SSA’s
prisoner workload.
                                  Appendices
APPENDIX A – Acronyms

APPENDIX B – Sampling Methodology and Results

APPENDIX C – Status of Recommendations from May 1996 Audit, Effectiveness in
             Obtaining Records to Identify Prisoners (A-01-94-02004)

APPENDIX D – Status of Recommendations from June 1997 Audit, Effectiveness of
             the Social Security Administration’s Procedures to Process Prisoner
             Information, Suspend Payments and Collect Overpayments
             (A-01-96-61083)

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A
Acronyms
CMPPA          Computer Matching and Privacy Protection Act of 1988

EVS            Enumeration Verification System

FBP            Federal Bureau of Prisons

FO             Field Office

IRCS           Incarceration Report Control System

MOU            Memorandum of Understanding

OASDI          Old-Age, Survivors and Disability Insurance

OFAM           Office of Finance, Assessment and Management
P.L.           Public Law

P.L. 104-193   Personal Responsibility and Work Opportunity Reconciliation Act of 1996

P.L. 106-169   Foster Care Independence Act of 1999

P.L. 106-170   Ticket to Work and Work Incentives Improvement Act of 1999

POMS           Program Operations Manual System

PSC            Program Service Center

PUPS           Prisoner Update Processing System

RECOOP         Recovery and Collection of Overpayments

SCHR           State Criminal History Repository

SSA            Social Security Administration

SSI            Supplemental Security Income

SSN            Social Security Number

SSR            Supplemental Security Record

TRO            Tax Refund Offset

UPS            Unverified Prisoner System
                                                                                 Appendix B
Sampling Methodology and Results
METHODOLOGY
We obtained an extract from the Incarceration Report Control System (IRCS) in
May 2002 of all reporters and facilities that had active prisoner agreements with the
Social Security Administration (SSA). Based on our review of the IRCS data, SSA had
active agreements covering prisoner data from the Federal Bureau of Prisons (FBP), all
50 States plus Washington, D.C., and over 3,000 county and local facilities.1

To determine whether the prisoner data submitted to SSA were processed and prisoner
alerts were worked accurately and timely, we conducted two separate samples. First,
we selected an unrestricted multistage sample to select 1 State from each of SSA’s
10 regions.2 Then, from SSA, we obtained the December 2001 prisoner data submitted
for each of the 10 randomly selected States. Second, we selected a simple random
sample from the December 2001 FBP submission.

For each December 2001 submission (for the 10 States and FBP),3 we verified each
prisoner’s name, Social Security number (SSN), gender, and date of birth using SSA’s
Enumeration Verification System to ensure the prisoners’ identities agreed with SSA’s
records. We then matched the verified SSNs against the Supplemental Security Record
and Master Beneficiary Record to identify those individuals who had received Social
Security payments.

Once we isolated prisoners who had received payments from SSA, we selected a
random sample of 50 records from the FBP and 50 records from each of the 10 State
submissions. If a State had fewer than 50 prisoners who had received payments from
SSA, we reviewed all of the cases for that State. (Table B-1 on page B-4 shows the
population and sample sizes for the FBP and 10 States.)




1
  Because the average number of verified SSNs for each of the county and local prisons was substantially
less than the average number of verified SSNs for State submissions and the FBP submission, we limited
our sampling to the State and FBP data. (On average, there were 266 county and local, 3,565 State and
47,230 FBP verified SSNs per the most recent submission on IRCS as of May 2002.)
2
 SSA was unable to provide us the December 2001 data file for 1 of our initial 10 States—Tennessee.
Therefore, we randomly selected an alternate State from this region—Alabama. The 10 States in our
sample were (by SSA region) Rhode Island, New York, Maryland, Alabama, Illinois, Louisiana, Iowa,
Colorado, Arizona and Washington.
3
    We decided to use December 2001 submissions to give SSA adequate time to work the prisoner alerts.


                                                   B-1
For each sample case, we:

       determined whether these submissions were processed and prisoner alerts
        generated for individuals identified through SSA’s Enumeration Verification
        System;

       determined whether prisoner alerts were worked accurately and timely; and

       calculated overpayments caused by alerts not being generated or processed
        accurately and/or timely.

Determining Whether Alerts Were Worked Timely

To determine whether Supplemental Security Income (SSI) payments were suspended
timely, we added 30 days to the later of the date SSA received the prisoner information
or the confinement date. To determine whether Old-Age, Survivors and Disability
Insurance (OASDI) benefits were suspended timely, we added 65 days—30 days to
work the alert plus 35 days for advance notice4—to the later of the date SSA received
the prisoner information, the confinement date or the conviction date. Additionally, if the
expected processing date was too late in the month for SSA to stop the next payment,
we did not consider the next payment to be an avoidable overpayment and calculated
the avoidable overpayment beginning with the subsequent month.

STATISTICAL SAMPLING RESULTS
We found 25 of our 533 sample cases (5 percent) were not timely or properly worked—
resulting in overpayments totaling $25,220. In 23 of the 25 overpaid cases, Prisoner
Update Processing System (PUPS) alerts were worked properly, but $17,891 in
preventable overpayments were made because the alerts were not worked timely:

           17 cases were overpaid 1 month,
           3 cases were overpaid 2 months,
           1 case was overpaid 3 months,
           1 case was overpaid 4 months, and
           1 case was overpaid 6 months.

In 1 of the 2 remaining overpaid cases, a beneficiary incorrectly received $6,554 in SSI
payments because the SSI alert was closed in error as “No Suspension.” Before
incarceration, this individual was eligible for both OASDI and SSI benefits. However,
starting in August 2001, receipt of his OASDI benefits caused the recipient’s SSI

4
  Program Operations Manual System, section GN 02607.970, Exhibits – Advance Notification Letters,
states when SSA receives prisoner information from facilities that have a formal reporting agreement with
it, the Agency needs to give advance notice and allow 30 days plus 5 mailing days—or 35 days—prior to
suspending OASDI benefits.


                                                   B-2
payments to be suspended for excess income.5 When SSA was notified that the
beneficiary was in prison, the Agency processed the OASDI prisoner alert and
suspended these benefits without overpaying the prisoner. Since the SSI alert was
incorrectly closed “No Suspension,” the SSI payment status code was not updated to
show prisoner incarceration, but instead, the payment status code stayed as excess
income. As a result, the recipient’s SSI payments resumed after his OASDI benefits
were suspended due to his incarceration. We confirmed this case with the responsible
SSA field office, and staff agreed that the prisoner alert was not worked correctly. As a
result, we determined this individual was overpaid $6,554 from March 2002 through
February 2003.

In the last overpaid case, PUPS had no alert matching the October 16, 2001
confinement that was on the prison tape. The individual was originally confined and
convicted in July 2001, and SSA processed a prison suspension for that period of
incarceration. The remarks screen for the prior PUPS alert stated the individual was
released from prison on October 16, 2001—the date of confinement on the prison tape
included in our review. We confirmed this case with the responsible SSA field office
and they informed us the individual was transferred and not released on
October 16, 2001, and this individual is not expected to be released from prison until
November 2003. A $775 overpayment resulted because SSA did not work this alert.

Table B-1 shows the results of our sample cases. Additionally, Table B-2 shows the
detailed reasons as to why our sample cases did not result in overpayments.




5
 Since the SSI program is a needs-based program, an individual’s monthly income is one of the factors
used to determine eligibility.


                                                 B-3
                                         Table B-1: Sample Results
                                                                               Number of
                                                           Number of          Sample Cases
                   Population                            Sample Cases          Not Worked           Benefits
      State           Size           Sample Size        Handled Properly        Properly            Overpaid
Federal Bureau         1,214                 50                  50                   0                  $0
of Prisons
Rhode Island             107                  50                 49                 1              2,217
New York                 254                  50                 50                 0                  0
Maryland                  64                  50                 46                 4              3,436
Alabama                  109                  50                 46                 4              8,162
Illinois                 438                  50                 49                 1                545
Louisiana                661                  50                 49                 1              1,592
Iowa                      33                  33                 29                 4              2,065
Colorado                  62                  50                 48                 2              2,187
Arizona                   76                  50                 47                 3              1,239
Washington                72                  50                 45                 5              3,777
Total                  3,090                 533                508                25            $25,220



 Table B-2: Details of “Number of Sample Cases Handled Properly” (Table B-1, Column 4)
              Suspension         Benefits
              Processed        Terminated/
                Timely         Suspended         Alert                                    Suspension
              Based upon          Before       Correctly      Incarceration   Confined    Processed
                a PUPS         Confinement    Closed – No       Pre-dated     Less than   Before Alert
   State         Alert         /Conviction    Suspension       Entitlement     1 Month     Generated      Total
Federal           24                12              8                 2           0             4         50
Bureau of
Prisons
Rhode             16                19             12                 0           2             0         49
Island
New York          23                26              1                  0          0             0         50
Maryland          19                18              3                  1          4             1         46
Alabama           20                17              1                  3          0             5         46
Illinois          17                20              5                  6          0             1         49
Louisiana         13                29              2                  3          1             1         49
Iowa              12                13              2                  0          0             2         29
Colorado          25                23              0                  0          0             0         48
Arizona           25                16              1                  3          0             2         47
Washington        26                12              7                  0          0             0         45
Total            220               205             42                 18          7            16        508




                                                        B-4
                                                                              Appendix C
Status of Recommendations from May 1996 Audit,
Effectiveness in Obtaining Records to Identify
Prisoners (A-01-94-02004)
Recommendation 1 - Institute Computer Matching Agreements or Memorandums of
Understanding (MOU) with Correction Agencies to Obtain Information on All Prisoners
Condition When      The Social Security Administration (SSA) had achieved only limited
Report Written      success in obtaining prisoner information. SSA had agreements to
                    obtain prisoner information from the Federal Bureau of Prisons (FBP)
                    and 47 of the 51 State (includes Washington, D.C.) correction
                    departments. However, only 156 of 3,316 county and local correction
                    agencies had agreements during our audit period.
SSA’s Comments      SSA agreed with our recommendation and stated it had nearly
                    completed a major initiative to secure agreements with all correction
                    facilities, particularly at the local level, for reporting prisoner information
                    to SSA.
Current Condition   SSA has active agreements to obtain prisoner information from the FBP,
                    all 51 State (includes Washington, D.C.) correction departments and
                    over 3,000 county and local facilities.
Recommendation      Yes
Implemented?

Recommendation 2 – Monitor the Compliance of Correction Agencies Submitting
Information in Accordance with Negotiated Computer Matching Agreements and
MOUs
Condition When      The monitoring process SSA used was not effective in controlling
Report Written      incoming information, as the monitoring process did not include
                    procedures to identify whether SSA received prisoner information in
                    accordance with the terms of its agreements.
SSA’s Comments      SSA agreed with our recommendation and stated it was taking actions to
                    enhance its ability to monitor and follow-up on receipt of prisoner
                    information.
Current Condition   In March 1997, SSA implemented the Incarceration Report Control
                    System (IRCS). IRCS alerts SSA when a reporter does not provide
                    inmate data as specified in the agreement. IRCS will automatically send
                    an alert to the Regional Prisoner Coordinator and the responsible field
                    office (FO) which says, “CONTACT THE REPORTER TO SUBMIT THE
                    APPROPRIATE PRISON REPORT.”

                    We determined that SSA is using IRCS to monitor the compliance of
                    correction agencies submitting prisoner information to SSA.
Recommendation      Yes
Implemented?




                                              C-1
    Recommendation 3 - Report Instances of Noncompliance to Congress
    Condition When           Our review of State submissions revealed that only about one-half of
    Report Written           the State correction departments were submitting prisoner
                             information in accordance with their agreements. Additionally, SSA
                             stated it lacked sanctioning power to enforce compliance with
                             reporting agreements.
    SSA’s Comments           SSA agreed with our recommendation and stated it was seeking
                             legislation to encourage correction agencies to submit inmate data
                             that will assist SSA in identifying offenders who should not continue
                             to receive SSA benefits. SSA stated that, as part of this proposed
                             legislation, it would report noncompliance by correction agencies to
                             Congress.
    Current Condition        Personal Responsibility and Work Opportunity Reconciliation Act of 1996
                             (Public Law 104-193), which became law on August 22, 1996, included a
                             provision requiring SSA to provide Congress no later than
                             October 1, 1998 a list of institutions that were not providing prisoner
                             information to SSA.1 On January 6, 1999, SSA reported to Congress
                             that, of a universe of 5,501 eligible facilities, 5,191 regularly report and
                             310 do not report incarcerations to SSA. By facility, SSA was not
                             receiving data from about 5.6 percent of the prisons; however, SSA
                             stated it was receiving data for “99 percent of the Nation’s prisoner
                             population.”
    Recommendation           Yes
    Implemented?




1
    P.L. 104-193 § 203(c).


                                                      C-2
    Recommendation 4 - Search for Improved Information Sources to Obtain Timely
    State and County and Local Prison Information. In this regard, State Criminal
    History Repositories (SCHR) and Direct Reporting from the Courts Should be
    Among the Sources Considered
    Condition When        Under the present system for obtaining prisoner information, SSA
    Report Written        does not receive prisoner information timely. Also, the number of
                          State, county and local entities that must be contacted is costly and
                          contributes to additional delays. We determined that SCHR and
                          Federal, State and county courts have the potential to provide a more
                          timely method for obtaining prisoner information than SSA is currently
                          using.
    SSA’s Comments        SSA stated it supports any effort that would result in timely receipt of
                          accurate and useful State and local prisoner information and have taken,
                          and continue to take, actions in that regard. However, it stated it
                          considered the use of SCHR and court system data and have generally
                          found that these would not be effective sources of prisoner information.
    Current Condition     Public Law (P.L.) 104-193 included a provision requiring that SSA
                          conduct a study of the desirability, feasibility, and cost of establishing a
                          system under which Federal, State, and local courts would furnish the
                          Commissioner with information respecting court orders by which
                          individuals are confined in jails, prisons and other penal, correctional or
                          medical facilities.2

                          SSA submitted its report to Congress on September 16, 1997 and
                          concluded it would be neither desirable nor feasible to establish a system
                          under which SSA would obtain data from Federal, State, or local courts.
                          SSA stated that, in the absence of extensive automation throughout the
                          court system, and because of the number of courts that would need to
                          participate in the process, it is clear that, at present, such a system
                          would not improve on the current system of prisoner data collection.
    Recommendation        Yes
    Implemented?




2
    P.L. 104-193 § 203(b)(1)(A).


                                                   C-3
Recommendation 5 - Seek Congressional Support to Require SCHRs to: Maintain
Information Which Enables SSA to Identify Prisoners Receiving Benefits
and Provide the Prisoner Information Necessary to Perform Initial Identification
Matches, or Require Direct Reporting by the Courts to SSA when the Sentence is
Handed Down
Condition When      Same as Recommendation 4.
Report Written
SSA’s Comments      SSA agreed that improved sources of prisoner data should be
                    developed, but stated that it would be premature to seek
                    congressional support without a strong rationale for seeking
                    legislation of this nature. Additionally, in response to
                    Recommendation 4, SSA stated that it considered the use of SCHR
                    and court data and generally found they would not be effective
                    sources of prisoner data.
Current Condition   As stated previously, SSA conducted a study as required by section
                    203(b)(1)(A) of P.L. 104-193 and concluded it would be neither desirable
                    nor feasible to establish a system under which SSA would obtain data
                    from Federal, State, or local courts. Additionally, in this report, SSA
                    stated that, in 1995, it initiated an aggressive effort to establish a more
                    effective system for ensuring that Old-Age, Survivors and Disability
                    Insurance (OASDI) and Supplemental Security Income (SSI)
                    beneficiaries who become incarcerated do not continue to receive
                    benefits to which they are not entitled. SSA stated the results of its
                    efforts have been dramatically successful. SSA stated that the FBP, all
                    State prisons, and more than 3,500 local facilities have agreed to report
                    prisoner data to SSA in an appropriate format and on a timely and
                    regular basis and that these facilities house approximately 99 percent of
                    the nation’s total prison inmate population.
Recommendation      Yes
Implemented?




                                             C-4
    Recommendation 6 - Seek Exemption from the Computer Matching and Privacy
    Protection Act (CMPPA) of 1988 for Renegotiating Computer Matching Agreements
    for Computerized Prisoner Information
    Condition When       The CMPPA3 requires that government agencies have a computer
    Report Written       matching agreement before matching computerized records from two
                         separate sources. The CMPPA requires that each agreement be
                         negotiated at least once every 30 months. We identified delays in
                         renegotiating the computer matching agreement with the FBP and
                         with State correction departments.
    SSA’s Comments       SSA agreed with our recommendation and stated it is seeking
                         appropriate legislation.
    Current Condition    Ticket to Work and Work Incentives Improvement Act of 1999
                         (P.L. 106-170) which became law on December 17, 1999, eliminates any
                         further need for CMPPA agreements for prisoner matches.4
    Recommendation       Yes
    Implemented?




3
    P.L. 100-503 (enacted October 18, 1988).
4
 P.L. 106-170 § 402(a)(2) amended the definition of “matching program” to exclude matches performed
pursuant to section 202(x)(3) or 1611(e)(1) of the Social Security Act [42 U.S.C. §§ 402(x)(3) and
1382(e)(1)].



                                                C-5
    Recommendation 7 - Require Reporting Agencies to Provide Prisoner Information
    on a Monthly Basis
    Condition When         Our review of State submissions revealed that only about one-half of
    Report Written         the State correction departments were submitting prisoner
                           information in accordance with their agreements. Additionally, SSA
                           did not require monthly reporting from correctional institutions,
                           creating delays in stopping payments to prisoners.
    SSA’s Comments         SSA stated that FOs were directed to seek agreements with
                           correctional institutions to obtain information on a monthly basis.
                           However, SSA did not believe it should seek legislation that would
                           impose more stringent reporting requirements on State and local
                           governments, since it is unclear what, if any, sanctions would be
                           effective in ensuring compliance. Instead, SSA stated it was seeking
                           legislation that would authorize incentive payments to State and local
                           institutions which report data within time frames that will allow early
                           detection of prisoners whose benefits should be suspended.
    Current Condition      P.L. 104-193 provided for incentive payments to those State and local
                           facilities who submit prisoner information to SSA that results in
                           suspension of SSI benefits.5 P. L. 106-170 extended to OASDI6 the
                           provisions of P.L. 104-193 that authorized payment from SSA to facilities
                           that reported inmate information. Both laws required facilities to provide
                           prisoner information to SSA on a monthly basis.
    Recommendation         Yes
    Implemented?




5
    P.L. 104-193 § 203(a)(1)(I)(i).
6
    P.L. 106-170 § 402(a)(1)(B).


                                                    C-6
    Recommendation 8 - Provide a Single Standard for Stopping Payments to Prisoners
    Receiving OASDI and SSI Benefits
    Condition When       We stated that the process of obtaining and processing prisoner
    Report Written       information could be simplified significantly through a legislative change
                         making the provisions for stopping OASDI and SSI payments consistent.
                         At the time our report was issued, OASDI benefits could be stopped for
                         any month during which an individual was confined in a penal institution
                         pursuant to his conviction of an offense that is punishable by
                         imprisonment for more than 1 year. However, SSI payments were
                         stopped for any individual confined in a public institution for an entire
                         month.
    SSA’s Comments       SSA agreed that the concept of establishing a single standard for
                         suspension of payments to prisoner receiving OASDI and SSI benefits
                         needed to be examined. However, they felt the issue needed further
                         study before the Agency might consider seeking legislation.
    Current Condition    P.L. 106-170 removed the requirement that OASDI beneficiaries be
                         convicted for an offense punishable by imprisonment for more than
                         1 year.7 After implementation of this P. L., benefits could be suspended
                         when an OASDI beneficiary had been convicted and incarcerated for a
                         period of more than 30 days. Thus, the requirements for stopping
                         payments to prisoners are essentially the same for OASDI and SSI
                         benefits.
    Recommendation       Yes
    Implemented?




7
    P.L. 106-170 § 402(b).




                                                  C-7
                                                                                  Appendix D
Status of Recommendations from June 1997 Audit,
Effectiveness of the Social Security Administration’s
Procedures to Process Prisoner Information,
Suspend Payments and Collect Overpayments
(A-01-96-61083)
    Recommendation 1 - Modify the Automated Prisoner Match to Generate Prisoner Alerts
    in Cases where Payments are Currently Suspended but could Potentially be Resumed
    and Paid Retroactively for a Period of Incarceration
    Condition When      SSA’s prisoner match did not produce an alert in the following
    Report Written      situations: (1) payments were already suspended but the suspension
                        date on SSA’s records did not agree with the incarceration date on
                        the prisoner record; (2) payments were suspended for a reason other
                        than incarceration, and retroactive payment was possible for the
                        period of incarceration; and (3) the beneficiary was appealing an
                        unfavorable SSA decision, and retroactive payment was possible if
                        the decision was reversed.
    SSA’s Comments      SSA stated that, on March 8, 1997, a new system was put in place to
                        process prisoner data—the Prisoner Update Processing System (PUPS).
                        For Old-Age, Survivors and Disability Insurance (OASDI), the system
                        produces the recommended alert for all suspensions except for those
                        already in prisoner suspense (code S7). PUPS will produce an alert
                        unless the inmate status code is “S” (confined and convicted but
                        sentence is less than 1 year) or “C” (confined but not convicted) or the
                        confinement date falls within a previous period of S7. Regarding the
                        Supplemental Security Income (SSI) program, alerts are generated for
                        payment status codes that represent suspension of benefits and
                        payment status codes pertinent to ineligible individuals (not receiving
                        benefits due to excess income). Alerts are not generated when the
                        individual’s benefits have been stopped because of incarceration.
    Current Condition   We reviewed 533 cases in our statistical sample and determined that
                        alerts were properly generated for 17 cases that were in suspended
                        payment status before SSA obtained prisoner information.1
    Recommendation      Yes
    Implemented?




1
  In one case, an individual’s benefits were suspended because of excess resources, but an alert was not
generated. However, there were other alerts on PUPS for this person, and the individual’s Supplemental
Security Record stated “PUPS PRISONER DATA EXISTS.” Also, the individual’s benefits were
terminated without his receiving benefits after his incarceration.


                                                  D-1
Recommendation 2 - Modify the Prisoner Match to Process Records that Match
Enumeration Records in all Respects but Name
Condition When      In SSA’s computer software procedures for the prisoner match,
Report Written      records were dropped from the match when the prisoner’s name did
                    not match the name shown on enumeration records. However, all
                    other information (such as Social Security Number [SSN], date of
                    birth, and gender) matched what was on SSA's enumeration and
                    payment records.
SSA’s Comments      SSA stated the Office of Systems and Office of Finance, Assessment
                    and Management (OFAM) were reviewing data for SSN verification
                    submitted by various sources to find ways of enhancing prisoner
                    matches. These components are working closely to determine whether
                    there are any patterns that are evident in the data so new and/or different
                    data elements may be used in the future to get better results from the
                    data submitted. Also, OFAM was working on ways of making the SSN
                    verification process more effective by conducting a manual review of
                    unverified SSNs. Following completion of the analysis, appropriate
                    changes were to be made to make the Enumeration Verification System
                    (EVS) more effective.
Current Condition   On March 6, 1999 the Unverified Prisoner System (UPS) was released to
                    production. PUPS will update UPS with SSNs that fail to verify through
                    EVS and will facilitate manual efforts to locate valid SSNs. When an
                    SSN is located for an unverified record, UPS will re-introduce the SSN
                    into EVS and PUPS processing. Matched SSNs will result in PUPS
                    alerts. PUPS alerts produced as a result of UPS processing are
                    assigned EVS verification codes “E” and “F.”

                    We determined that over 161,000 of the approximately 4.5 million
                    records in the PUPS system as of October 2001 had EVS verification
                    codes of “E” or “F.” We have concluded that SSA is using the UPS to
                    determine possible SSNs for individuals that fail to verify through EVS
                    based on the data submitted by prisons.
Recommendation      Yes
Implemented?




                                             D-2
Recommendation 3 - Modify the Match to Prevent Duplicate Tape Processing and
Unnecessary Alerts
Condition When      During our review, tapes were occasionally not recorded in the
Report Written      completion log after EVS processing. In such cases, the tapes were
                    processed a second or third time.
SSA’s Comments      SSA stated this had already been completed. SSA stated that PUPS
                    eliminates system generated duplicate alerts. In addition, the
                    implementation of stricter processing controls should reduce the
                    probability of duplicate tape processing through human error.
Current Condition   We obtained an extract of approximately 4.5 million alerts in the PUPS
                    system as of October 2001. We determined this extract contained
                    29 potentially duplicate alerts (0.0006 of 1 percent).
Recommendation      Yes
Implemented?




                                            D-3
Recommendation 4 - Work with State, County and Local Correctional Agencies to
Increase the Submission of Prisoner Information Electronically, Thereby
Eliminating Paper Submissions
Condition When      At the time of our review, 10 States and most local and county
Report Written      facilities submitted prisoner records to SSA on paper. We stated that
                    manually processing paper prisoner records is error prone, causing
                    delays in identifying prisoners receiving benefit payments.
SSA’s Comments      SSA has always encouraged sources to report electronically. SSA
                    pursued legislation to allow it to enter into incentive agreements with
                    data sources for information submitted on inmates leading to suspension
                    of payments. Under the terms of the agreements, SSA is requiring that
                    the sources report electronically within 12 months of executing the
                    agreement. SSA believed these initiatives would reduce substantially
                    the number of paper reports received.
Current Condition   Section 203(a)(1) of P.L. 104-193, enacted on August 22,1996,
                    authorized incentive payments for institutions providing data on SSI
                    recipients. Section 402(a)(1)(B) of P.L. 106-170, enacted on
                    December 17, 1999, authorized incentive payments for institutions
                    providing data on OASDI beneficiaries. Both laws stated: “The
                    institution shall provide the Commissioner, on a monthly basis and in a
                    manner specified by the Commissioner the names, Social Security
                    account numbers, dates of birth, confinement commencement dates,
                    and, to the extent available to the institution, such other identifying
                    information concerning the inmates of the institution.”

                    Based on information on the Incarceration Report Control System (IRCS)
                    in May 2002, we determined that 50 of the 51 States (includes
                    Washington, D.C.) are reporting prisoner data to SSA electronically. The
                    State not providing data electronically claims their current computer
                    system does not have the capability, and they do not have the money to
                    put in place a computer system that would allow them to report prisoner
                    data electronically.

                    Additionally, based on May 2002 IRCS data, we determined that, for the
                    2,401 reporters submitting prisoner data for county and local facilities,
                    982 reported data electronically and 1,419 reported on paper. The files
                    obtained from reporters submitting data electronically appear to be
                    substantially larger than those submitted on paper as the average
                    number of verified SSNs per submission was 552 for electronic
                    submissions and 67 for paper submissions.

                    In August 2002, SSA contacted all reporters submitting prisoner data on
                    paper and attempted to get these facilities to begin reporting
                    electronically. SSA’s goal is that all reporters submit prison information
                    to them electronically. However, SSA feels that receiving prisoner data
                    is much more important than ensuring that the data are submitted in an
                    electronic media.
Recommendation      Yes
Implemented?


                                             D-4
Recommendation 5 - Modify the Prisoner Match to Control and Follow-up on Alerted
Cases to Provide Reasonable Assurance They are Resolved Timely
Condition When      Prisoner alerts were not processed and benefit payments were not
Report Written      suspended in a timely manner. This was because SSA needed
                    better automated controls over the processing of prisoner alerts. The
                    prisoner match was not designed to control and follow up on prisoner
                    alerts to ensure they were processed. Further, it did not create a
                    control file of alerted records and continue to match them against
                    SSA’s records until the alerts were resolved. Once SSA alerted the
                    field office (FO) or program service center (PSC) to a possible
                    prisoner suspension, no record of the transaction was retained. If
                    there was a delay in working the alert, no reminder was produced to
                    press the FO or PSC into action.
SSA’s Comments      SSA stated that, with implementation of PUPS in March 1997, alerts
                    were being automatically sent to follow up on all pending cases.
                    After 60 and 90 days, for pending cases, an alert is directed to the
                    FO or PSC where the original alert was sent for investigation. After
                    120 days, an alert will be sent to the regional office for investigation;
                    after 150 days, an alert will be sent to the Office of Operations at
                    central office for investigation and resolution.
Current Condition   During our detailed testing of 533 sample cases, we determined that
                    almost 90 percent of all cases in which suspensions were processed, the
                    suspensions were processed timely. In only 6 of the 243 sample cases
                    in which prisoner benefits were suspended was the overpayment due to
                    untimely suspension of benefits for 2 months or longer.
Recommendation      Yes
Implemented?

Recommendation 6 - Establish Procedures to have Regional Offices Investigate
Cases not Resolved after Several Follow-up Alerts
Condition When      As stated under Recommendation 5.
Report Written
SSA’s Comments      SSA stated a procedure was implemented, as explained in the
                    comments on the preceding recommendation.
Current Condition   In only 6 of the 243 cases in our sample, in which prisoner benefits
                    were suspended, was the overpayment due to untimely suspension
                    of benefits for 2 months or longer.
Recommendation      Yes
Implemented?




                                            D-5
Recommendation 7 - Require PSC and FO Mangers to use Management Systems to
Provide Reasonable Assurance that all Prisoner Alerts are Processed Timely
Condition When      As stated under Recommendation 5.
Report Written
SSA’s Comments      SSA stated this was accomplished through PUPS, which provides
                    alerts to ensure all alerts are processed timely.
Current Condition   In only 6 of the 243 cases, in our sample in which prisoner benefits
                    were suspended, was the overpayment due to untimely suspension
                    of benefits for 2 months or longer.
Recommendation      Yes
Implemented?

Recommendation 8 - Accelerate Implementation of Automated Transmission of SSI
Alerts to FOs
Condition When      Unlike OASDI prisoner alerts—which were sent directly to PSCs for
Report Written      processing—SSI prisoner alerts were printed at SSA’s central office and
                    hand-carried to a mailroom. SSA personnel acknowledged that manually
                    separating alerts could cause alerts destined for one FO to be mailed to
                    another. Manually handling, transferring, sorting and mailing SSI
                    prisoner alerts delayed processing an average of 13 days for alerts
                    handled during the last 6 months of 1994.
SSA’s Comments      In SSA’s comments to our report the Agency stated that, as of March
                    1997, alerts were transmitted to FOs electronically.
Current Condition   We contacted an employee at an SSA FO, who confirmed that since
                    1997, SSI alerts are received electronically.
Recommendation      Yes
Implemented?




                                            D-6
    Recommendation 9 - Establish Procedures for Monitoring SSI Overpayments
    Condition When       Since SSI overpayments made to prisoners are not uniquely identified on
    Report Written       SSA’s records, SSA does not monitor SSI collection activities.
    SSA’s Comments       SSA stated that the Office of Systems was developing data elements on
                         the Supplemental Security Record (SSR) to break out prisoners from the
                         general category of inmates in a public institution. SSA stated that with
                         this enhancement it will be better able to identify and monitor SSI
                         prisoner overpayments.
    Current Condition    In November 1997, systems changes were implemented that established
                         a new code on the SSR that is used to indicate that the recipient was/is
                         in a prison. If this code is entered, no SSI payment will be made for the
                         months that the code is in place. If payment was made before SSA
                         knew the recipients’ prison status, the placement of the code when SSA
                         is notified by prison authorities indicates there is an overpayment due.

                         During our detailed sampling of prisoner cases, we determined that SSA
                         correctly used this newly created suspension code—“N22”—in 150 SSI
                         cases that were suspended due to incarceration in November 1997 or
                         later.2
    Recommendation       Yes
    Implemented?

    Recommendation 10 - Change SSA’s Existing Policy so that Collection Efforts are
    not Terminated Solely because the Beneficiary is still Incarcerated
    Condition When       SSA had limited success in recovering overpayments made to prisoners.
    Report Written       In most of the cases we reviewed, SSA made little effort to collect the
                         overpayment until the beneficiary was released from prison and
                         reapplied for benefits.
    SSA’s Comments       SSA stated it was assessing policies and procedures in this area to
                         determine whether changes were warranted.
    Current Condition    SSA’s policy is to use all legally authorized means to collect debts owed
                         by beneficiaries who are incarcerated. We noted that SSA stated it
                         pursues both OASDI and SSI debts via the Recovery and Collection of
                         Overpayments (RECOOP) system, which conducts billing and followup.
                         In addition, SSA implemented our recommendation to expand the Tax
                         Refund Offset (TRO) program to include SSI overpayments, and
                         legislation was enacted that gives SSA the ability to more aggressively
                                                 3
                         pursue overpayments.
    Recommendation       Yes
    Implemented?




2
    We noted one instance when N22 should have been used, but in error, suspension code N02 was used.
3
    P.L. 106-169, the Foster Care Independence Act of 1999, §§ 202 and 203 (enacted in December 1999).



                                                  D-7
Recommendation 11 – Expand the Tax Refund Offset to all Delinquent Debt,
Including SSI Overpayments
Condition When      SSA’s collection efforts were greater for OASDI overpayments than for
Report Written      SSI overpayments. Specifically, SSA pursued TRO for OASDI cases but
                    not SSI cases.
SSA’s Comments      SSA stated it was expanding the use of TRO to SSI delinquent debts for
                    recipients for whom benefits were not being paid because of
                    incarceration. SSA planned to begin using this method of recovery for
                    delinquent SSI debts, including prisoner overpayments, in January 1998.
Current Condition   Effective with the 1998 TRO program year and continuing, the TRO
                    program includes delinquent SSI debts. In 1998, SSA certified
                    181,462 SSI debts worth $312.6 million to the Department of the
                    Treasury.
Recommendation      Yes
Implemented?




                                           D-8
    Recommendation 12 – Enhance Collection Activities for the $8.9 Million in OASDI
    Overpayments and $11.5 million in SSI Overpayments which were Identified in this
    Report
    Condition When        SSA had limited success in recovering overpayments made to prisoners.
    Report Written        In most of the cases we reviewed, SSA had made little effort to collect
                          the overpayments until the beneficiaries were released from prison and
                          reapplied for benefits. SSA’s collection efforts were greater for OASDI
                          overpayments than for SSI overpayments.
    SSA’s Comments        SSA stated that, where it is cost-effective to do so, SSA would exercise
                          its full statutory authority to recover overpayments. SSA stated it was
                          looking for ways and taking action to enhance its collection activities.
                          However, SSA stated it was limited by statute to a recovery rate of
                          10 percent of the SSI payment (when the prisoner is released and
                          re-establishes eligibility), unless the prisoner was convicted of fraud that
                          resulted in the overpayment. Further, SSA stated they had no authority
                          to collect SSI overpayments from OASDI benefits without the individual’s
                          voluntary consent.
    Current Condition     On December 14, 1999, the Foster Care Independence Act of 1999,
                          (P.L. 106-169) was enacted. This legislation included two provisions
                          related to debt collections:
                               (1) Recovery of Overpayment of SSI Benefits From Lump Sum SSI
                                    Benefit Payments – requires that the Commissioner recover SSI
                                    overpayments from SSI lump-sum amounts by withholding
                                    50 percent of the lump sum or the amount of the overpayment,
                                    whichever is less,4 and
                               (2) Additional Debt Collection Practices – extends to the SSI program
                                    all of the debt collection authorities available for collection of
                                    overpayments under the OASDI program.5

                          Additionally, as stated above, SSA uses the RECOOP system to pursue
                          OASDI and SSI debt, and has expanded the TRO to include SSI debt.
    Recommendation        Yes
    Implemented?




4
    P.L. 106-169 § 202.
5
    P.L. 106-169 § 203.


                                                   D-9
Recommendation 13 – Seek a Legislative Change to Allow more Aggressive Pursuit
of Overpayments if the Current Legislation Does Not Allow SSA to Perform All
Collection Activities Deemed Effective
Condition When      In SSA’s comments to Recommendations 11 and 12, the Agency stated
Report Written      that it did not have the authority to use the TRO to recover debt from
                    suspended beneficiaries, that it was limited by statute to a recovery rate
                    of 10 percent of SSI payments and that it had no authority to collect SSI
                    overpayments from OASDI benefits without the voluntary consent of the
                    individual. In response to these comments, we added this
                    recommendation to our final report.
SSA’s Comments      None. This recommendation was added to our final report in response to
                    comments on overpayment collection activities.
Current Condition   Debt provisions of P.L. 106-169 (see recommendation 12) gave SSA the
                    ability to more aggressively pursue overpayments.
Recommendation      Yes
Implemented?




                                            D-10
                  Appendix E
Agency Comments
                                           SOCIAL SECURITY

MEMORANDUM                                                                           32203-24-935


Date:      June 19, 2003                                                             Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Follow-up on Prior Office of the Inspector General
           Prisoner Audits” (A-01-02-12018)—INFORMATION


           We appreciate the OIG's efforts in conducting this follow-up review. We are pleased with the
           acknowledgment of the progress the Agency has made in the last few years improving the prisoner
           reporting suspension process and the completion of the previous 21 recommendations. As
           documented in the report, we have significantly increased the number of jurisdictions reporting,
           automated reporting, workload controls and overpayment collections.

           The Agency continues to strive for the goal of processing each case correctly the first time.
           To assist in this goal, an internal quality study is being conducted on the accuracy of the prisoner
           alert workload. The study is specifically looking at the prisoner alert cases processed by the field
           offices. We are reviewing alert cases to ensure they were properly developed and processed.
           The study is expected to be completed in the second quarter of fiscal year 2004.

           In keeping with the Presidential Directive on Electronic Government, the Agency is working
           diligently to develop and encourage electronic reporting from State and local institutions via a
           secure internet channel. This process would allow for administrative and program savings for
           SSA, along with a savings to those who report the data. A Memorandum of Understanding
           between the U.S. General Services Administration (GSA) – Managing Partner – E-Authentication
           Initiative and SSA has been consummated. The collaboration initiative supports the GSA E-
           Authentication initiative and is expected to be completed by January 2004.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Trudy Williams at extension 50380.
                                                                         Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts

       Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

       Judith Oliveira, Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those named above:

       Jeffrey Brown, Auditor

       Kevin Joyce, IT Specialist

       David Mazzola, Senior Auditor

       Toni Paquette, Program Analyst

       Frank Salamone, Auditor

       Charles Zaepfel, Computer Specialist


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-02-12018.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
